                           STATE OF TENNESSEE

                EVALUATION OF GRANT OBLIGATIONS
                       AND EXPENDITURES

               WORKFORCE INVESTMENT ACT GRANTS
                AND JOB TRAINING PARTNERSHIP ACT
                        TRANSITION FUNDS


               INDEPENDENT ACCOUNTANT’S REPORT
              ON APPLYING AGREED-UPON PROCEDURES

               JULY 1, 2000 THROUGH DECEMBER 31, 2001




This agreed-upon procedures report was prepared by Harper, Rains, Stokes and Knight, PA,
under contract to the U.S. Department of Labor, Office of the Inspector General, and by
acceptance it becomes a report of the Office of Inspector General.


                                   ______________________________
                                   Assistant Inspector General For Audit
                                   U.S. Department Of Labor




                                              Report No: 04-03-006-03-390
                                              Date Issued: March 28, 2003

               HARPER, RAINS, STOKES, & KNIGHT, P.A.
                                                TABLE OF CONTENTS


Acronyms ........................................................................................................................................iii

Independent Accountant’s Report on Applying Agreed-Upon Procedures.....................................1

Summary of Results.........................................................................................................................2

Background, Scope and Methodology ............................................................................................3

           Background ..........................................................................................................................3
           Scope and Methodology.......................................................................................................4

Procedures and Findings ..................................................................................................................5

Exhibit I – Financial Status Report, Local Adult Program Activities

Exhibit II – Financial Status Report, Local Dislocated Worker Program Activities

Exhibit III – Financial Status Report, Local Youth Program Activities

Exhibit IV – The State of Tennessee’s Response




                                                                   ii
                         ACRONYMS


CFR      Code of Federal Regulations

DOL      U.S. Department of Labor


ETA      Employment and Training Administration


FIFO     First-In-First-Out

FSR      Financial Status Report


FY       Fiscal Year


JTPA     Job Training Partnership Act

MER      Monthly Expenditure Report


OGCM     Office of Grants and Contract Management


OIG      Office of the Inspector General

PY       Program Year


TDOLWD   Tennessee Department of Labor and Workforce Development


WIA      Workforce Investment Act




                              iii
                                SUMMARY OF RESULTS


We obtained and summarized the WIA funds obligated and expended as of
December 31, 2001, based on records available at TDOLWD. We determined that the
obligation information reported by TDOLWD, as of December 31, 2001, included the
actual obligations for State-wide activities. However, the portion of obligations reported
on the Financial Status Reports (FSRs) attributable to Local Boards included grant funds
passed to the Local Boards, not the amounts that the Local Boards had actually obligated.

We found that the accounting records supported the amounts reported as obligations and
expenditures on FSRs. Procedures were established for recording transactions on the
accrual basis of accounting at both State and Local program levels, in accordance with
Federal regulations. However, we found one of the three Local Boards visited, the Knox
County Community Action Committee, reported expenditures on the cash basis of
accounting, to TDOLWD, during our review period. The amounts of expenditures
reported to TDOLWD by the Local Boards were substantiated by monthly reports
submitted from the Local Boards and subcontractors.

As of December 31, 2001 Tennessee had expended $52.5 million of the $109.7 million
awarded, leaving $57.2 million or 52.1 percent unexpended. At this rate of spending, it
would take approximately twenty months to spend the remaining funds, during which
time TDOLWD would receive additional WIA allocations.

TDOLWD and Local Boards charged expenditures to WIA grants on a First-In-First-Out
(FIFO) basis, rather than matching Program Year (PY) expenditures with the grant
awards applicable to that period.

State of Tennessee’s Response

The Tennessee Department of Labor and Workforce Development provided a written
response to our draft report, which is included in its entirety at Exhibit IV. In general, the
State agreed with the information presented in the report, but provided additional
comments. Tennessee stated that charging expenditures to WIA grants on a FIFO basis is
an acceptable practice under Office of Management and Budget (OMB) Circular A-87.

Our procedures were not intended to determine Tennessee’s compliance with program
requirements or OMB cost principles. However, by using the FIFO basis, Tennessee
does charge current expenditures to prior period funds until exhausted.




                                              2
                  BACKGROUND, SCOPE AND METHODOLOGY


Background

WIA, enacted in 1998, was designed to reform prior Federal job training programs and
create a new comprehensive workforce investment system. The new system intends to
provide customer-focused services, assist Americans in accessing the tools needed to
manage their careers through information and services, and assist U.S. companies in
finding skilled workers. WIA superseded JTPA and amended the Wagner-Peyser Act.

Initial grants for the WIA program were awarded by DOL, ETA, beginning in Program
Year (PY) 2000. However, unexpended funds from the PY 1998 and PY 1999 JTPA
programs were authorized for transition into the WIA program. Generally, the states are
required to pass through approximately 85 percent of the awards received from DOL to
Local Boards (subrecipients). States have the original program year plus two additional
program years to spend the grant funds. However, funds allocated by a State to a Local
Board, for any program year, are available for expenditure only during that program year
and the succeeding program year. Funds that are not expended by a Local Board in the
two-year period must be returned to the State.

States are required to report WIA activities on quarterly Financial Status Reports (FSRs).
Accrued expenditures and obligations are key items reported on the FSRs. Accrued
expenditures are reported when a valid liability has been created through delivery of
goods or services, regardless of when cash payment is made. For example, salaries
earned by employees, but not yet paid, should be recorded as accrued expenditures.
Obligations are reported when certain events occur that will require payment by the
States or Local Boards in the same or a future period. Obligations are defined in the WIA
regulation as follows:

       . . .the amounts of orders placed, contracts and subgrants awarded, goods
       and services received, and similar transactions during a funding period
       that will require payment by the recipient or subrecipient during the
       same or a future period [20 CFR 660.300].

According to ETA, Office of Grants and Contract Management (OGCM), States have
been instructed to report obligations for Statewide Activities and Rapid Response only
for those amounts of funding for which a legal liability exists at the State level.
Likewise, the State has been instructed to report obligations for Local Board activities
(Local Administration, Youth, Adult and Dislocated Workers), only for those amounts of
funding for which a legal obligation exists at the Local Board level. ETA did not clearly
specify whether Local Boards’ obligations or States' pass-through awards should be
included on these reports.




                                            3
Scope and Methodology

Our agreed-upon procedures comprise WIA funds awarded to TDOLWD for PY 2000,
FY 2001, PY 2001 and FY 2002, as well as PY 1998 and PY 1999 JTPA funds
transitioned into the WIA program. Procedures were applied to grant activities reported
by TDOLWD and three Local Boards (Memphis Workforce Investment Network, the
Knoxville – Knox County Community Action Committee and the Nashville Career
Advancement Center), for the period July 1, 2000 through December 31, 2001.

In general, our procedures were designed to summarize TDOLWD’s WIA financial
activity (obligations and expenditures) through December 31, 2001, to determine if the
amounts reported to ETA agreed with the supporting accounting records, and to measure
the extent to which TDOLWD and Local Boards have obligated and expended WIA
funds.




                                           4
                           PROCEDURES AND FINDINGS

1.      Interview the appro priate TDOLWD personnel regarding how information
        is accumulated from the Local Boards and about the preparation of the FSR.
        Using this information, verify exactly what obligations were reported on the
        December 31, 2001 WIA Quarterly FSRs. Determine if the amounts passed
        through to the Local Boards are reported as obligations on the FSRs. Based
        on the information obtained, determine if the State is reporting obligations as
        described at 20 CFR 660.300 to include subgrants awarded to subrecipients.

        As of December 31, 2001, amounts reported as “obligations” on FSRs were funds
        TDOLWD had allocated to Local Boards for operation of the Adult, Youth and
        Dislocated Worker programs, as well as amounts allocated to Local Boards for
        administrative expenses. Obligations for State- level activities were also included
        in amounts reported as Federal obligations on FSRs. The Local Boards reported
        financial activities to TDOLWD on Monthly Expenditure Reports (MERs).
        However, the Local Boards were not required to report obligations on the MERs.

        According to representatives of TDOLWD, the amounts passed through to Local
        Boards are considered to be “obligated” at the time the funds are passed to Local
        Boards. Reporting of funds passed to Local Boards as “obligated” does not
        consider whether bona fide legal obligations exist, and may overstate reported
        obligations.

        ETA did not provide Tennessee clear instructions interpreting 20 CFR 660.300
        regarding whether Local Board obligations or State pass-through awards should
        have been included on the FSRs. Based on our review of schedules and detail
        reports provided as support for the FSRs, we determined that obligations reported
        on the FSRs included amounts awarded as subgrants to subrecipients.
        Consequently, TDOLWD is reporting obligations as defined in 20 CFR 660.300.

     2. Determine how TDOLWD tracks the various funding periods for both
        TDOLWD activities and Local Board activities, and if data is accounted for
        in a manner that will allow expenditures to be matched against the
        appropriate obligation.

        Based on discussions with representatives of TDOLWD, as well as examination
        of financial records at TDOLWD and Local Boards, we determined that
        TDOLWD does not match expenditures with the appropriate fiscal period’s
        funding. Rather, expenditures of a given period are charged against the earliest
        available funding.

        Expenditure information reported to TDOLWD by the Local Boards was
        identified by funding period; however, reported expenditures were charged to the
        earliest year that funding was available, rather than the year in which the
        expenditures occurred. As a result, we could not match a program’s cost with the
        period for which it was funded.


                                             5
3.   Determine if the expenditure information (Outlays on the December 31, 2001
     FSRs) was reported on the accrual basis of accounting as required at 29 CFR
     97 and the WIA reporting instructions at 20 CFR 667.300 (c) (3).

     As discussed in greater detail at item 8 of this report, MERs consist of the same
     general format as the Federal FSR. These monthly reports detail, among other
     things, the amounts of accrued expenditures incurred to date, by the Local Boards.
     These amounts then roll up into the Federal FSR as “Outlays”.

     We reviewed the instructions provided by TDOLWD to the Local Boards and
     determined that the amounts reported as “accrued expenditures” should include
     expenditures that have been incurred, but for which payment has not been made
     by the Local Boards. This manner of reporting is consistent with the accrual basis
     of accounting, as required by 29 CFR 97 and the instructions at 20 CFR 667.300.

     We made specific inquiries of Local Board officials regarding the inclusion of
     accruals in the amounts reported as expenditures to TDOLWD. Representatives
     from two of the Local Boards stated that amounts reported as expenditures
     included accruals, as the instructions required. However, the Knox County
     Community Action Committee reported expenditures on a cash basis, for most of
     our review period.

4.   Determine what information is required to be reported by the Local Boards
     to TDOLWD, including the content, format, frequency and any written
     instructions issued by TDOLWD. Obtain copies of reports submitted by the
     Local Boards and copies of written instructions.

     Our review of the Financial Management Handbook, established by TDOLWD
     and distributed to the Local Boards, and discussions with representatives of
     TDOLWD, revealed that the Local Boards are required to report specific financial
     data to TDOLWD on a monthly basis. MERs are submitted for each month of the
     fund availability period.

     We reviewed copies of the MERs for the quarter ending December 31, 2001. As
     required by the Handbook, the MERs included total Federal funds available,
     monthly and cumulative expenditures. Obligation information was neither
     reported on the MERs nor captured by the Local Boards’ financial systems.

5.   Obtain or prepare from documents supporting the FSRs, a summary of the
     FSRs from the Local Boards and analyze this information to select the Local
     Boards to visit.

     We prepared a report using the FSRs which detailed, by funding stream, the
     amounts of Allocations, Expenditures and Expenditures expressed as a percentage
     of Allocations. Utilizing this report, we made a judgmental selection of three
     Local Board offices in which to conduct fieldwork. The Local Boards selected


                                         6
     for site visits were the Memphis Workforce Investment Network, the Knoxville –
     Knox County Community Action Committee and the Nashville Career
     Advancement Center offices.

6.   Compare the information compiled at ETA to the reports prepared by
     TDOLWD and explain any differences determined.

     We examined the FSRs reported by TDOLWD to DOL, and compared them to
     the corresponding data compiled by ETA. The information on the FSRs was
     consistent with the information compiled by ETA. Key elements of the FSR data
     were extracted from the reports, including Total Federal Funds Authorized,
     Obligations, Outlays (accrued expenditures), and the Unobligated Balance of
     Federal Funds for each funding stream, PY and FY. This extracted data was then
     used to perform the analytical procedures as described at item 7 of this report.

7.   Perform an analytical review of the information obtained to develop trend
     information and investigate any unusual relationships noted.

     Total Federal Funds Authorized

     The table below shows the total WIA funds awarded by DOL to TDOLWD since
     inception of the WIA program:

      Funding      Beginning of        Expiration of         Total WIA
       Period    Spending Period      Spending Period      Funds Awarded
      PY 1998     JTPA transition      June 30, 2001        $ 2,089,584

      PY 1999     JTPA transition       June 30, 2002       $    9,236,967

      PY 2000       July 1, 2000        June 30, 2003       $ 27,717,109

      FY 2001     October 1, 2000       June 30, 2003       $ 23,061,870

      PY 2001       July 1, 2001        June 30, 2004       $ 27,830,587

      FY 2002     October 1, 2001       June 30, 2004       $ 20,735,770

       Less:     Rescission of PY 2001 funds               ($     965,444)

                 Total Awards                               $ 109,706,443

     WIA funds are awarded on a PY basis, from July 1 to June 30, except for Youth
     grants, which are available in the April preceding the start of the PY. However, a
     portion of PY 2000 and 2001 funding denoted as “FY” above, was not available
     until October 1 of each respective PY.



                                          7
7. (Continued)


      WIA Funds Obligated

      The data presented below reflect the total WIA funds reported to ETA as
      obligated by TDOLWD, as of December 31, 2001.

                                                  Total WIA
          Funding           Total Funds              Funds             Amount              Percent of
           Period             Awarded              Obligated         Unobligated            Funding
                            (in millions)        (in millions)       (in millions)        Unobligated
          PY 1998           $    2.1               $   2.1            $ 0.0                  0.0%

          PY 1999            $     9.2              $    9.2          $     0.0                0.0%

          PY 2000            $   27.7               $   27.7          $     0.0                0.0%

          FY 2001            $   23.1               $   20.8          $     2.3                9.8%

          PY 2001            $   27.8               $   26.0          $     1.8                6.6%

          FY 2002            $   20.7               $   16.1          $     4.6               22.2%


      Less: PY 2001         ($     1.0)                  N/A          ($    1.0)               N/A
      Rescission

            Total            $ 109.7                $ 101.9           $     7.8               7.1%


      Note: Information in the above table was obtained from the quarterly Financial Status Reports
      prepared by TDOLWD and summarized. Additionally, a portion of PY 2001 funding was
      rescinded as noted above. In some instances, the individual amounts in the above columns do not
      sum to the amount presented as the total due to rounding differences.

      As discussed further at item 1 of this report, in addition to obligations made at the
      State level, TDOLWD reported funds to be “obligated” upon allocation to Local
      Boards. Of the total $109.7 million of funding available, $7.8 million (7.1
      percent) remained unobligated, as of December 31, 2001.




                                                8
7. (Continued)


      Total Federal Expenditures

      The following summary reflects the total WIA expenditures reported by
      TDOLWD, through December 31, 2001. These amounts are recorded in DOL’s
      general ledger.

                                 Total Funds            Total               Amount          Percent of
                                   Awarded          Expenditures            Unspent          Funding
         Funding Period          (in millions)      (in millions)        (in millions)       Unspent
            PY 1998                $   2.1           $   2.1               $   0.0            1.9%

             PY 1999               $     9.2          $    8.0              $    1.3          13.5%

             PY 2000               $   27.7           $   22.6              $    5.1          18.4%

             FY 2001               $   23.1           $   14.5              $    8.6          37.2%

             PY 2001               $   27.8           $    5.0              $   22.9          82.1%

             FY 2002               $   20.7           $    0.4              $   20.4          98.2%


          Less: PY 2001           ($    1.0)              N/A             ($    1.0)           N/A
           Rescission

                 Total             $ 109.7            $   52.5          $       57.2          52.1%

      Note: Information in the above table was obtained from the quarterly Financial Status Reports
      prepared by TDOLWD and summarized. Additionally, a portion of PY 2001 funding was
      rescinded as noted above. In some instances, the individual amounts in the above columns do not
      sum to the amount presented as the total due to rounding differences.

      Of $109.7 million in total WIA funds awarded to TDOLW D, they spent $52.5
      million (47.9 percent), leaving a significant portion of their funding (52.1 percent)
      unspent as of December 31, 2001. At this rate of spending, it would take
      approximately twenty months to spend the remaining funds, during which time
      TDOLWD would receive additional WIA allocations.




                                                9
7. (Continued)

      Expenditure Analysis by Funding Stream

      The following provides a summary of the unspent funding by program
      component:

                                            Amount            Amount            Percent of
                                            Awarded           Unspent            Funding
          Program Component               (in millions)     (in millions)        Unspent

       Local Board Activities:
       Adults                             $     29.8        $    14.7              49.3%
       Dislocated Worker                  $     16.8        $     7.0              41.7%
       Local Admin                        $      8.6        $     4.3              50.0%
       Youth                              $     30.9        $    18.4              59.5%
       Total Local Board
        Activities                        $     86.0        $    44.4              51.6%

       State Activities:
       State-wide Activities              $     16.7        $    11.0             65.9%
       State-wide Rapid Response          $      7.9        $     2.9             35.7%
       Total State Activities             $     24.7        $    13.8             55.9%

       Less: PY 2001 Rescission          ($      1.0)       ($    1.0)              N/A


       Total Funding                      $   109.7         $    57.2              52.1%


      Note: Information in the above table was obtained from the quarterly Financial Status Reports
      prepared by TDOLWD and summarized. Additionally, a portion of PY 2001 funding was
      rescinded as noted above. In some instances, the individual amounts in the above columns do not
      sum to the amount presented as the total due to rounding differences.

      The expenditure data submitted by TDOLWD through December 31, 2001,
      indicates that the majority of WIA funds at both TDOLWD and Local Boards
      were not spent as of that date (55.9 percent and 51.6 percent, respectively).




                                               10
8.   Interview the appropriate Local Board personnel regarding how information
     is accumulated and about the preparation of the Local Board reports to
     TDOLWD. Inquire as to the source of obligation, cost and/or payment
     information reported to TDOLWD by the Local Board, and determine if the
     information reported agrees with the corresponding source accounting
     records.

     Through discussions with Local Board personnel, we determined that expenditure
     information, as well as funding availability by period, is reported by the Local
     Boards to TDOLWD using the MERs. We obtained copies of these reports from
     TDOLWD, as well as the Local Boards during our visits. The information on the
     MERs shows the Federal fund allocation for each year, in addition to the
     cumulative and monthly expenditures.

     In conjunction with the MERs, we reviewed the source account ing records at the
     three Local Boards we visited, in order to determine if they agreed to the
     information reported to the State. In all instances, the Local Boards provided us
     with documentation supporting the amounts reported as expenditures. However,
     TDOLWD does not require that Local Boards track or report obligations on the
     MERs.

9.   Determine how the Local Board tracks the various funding periods and if
     data is reported and accounted for in a manner which will allow
     expenditures to be matched against the appropriate obligation or
     subcontract agreement.

     The Local Boards employ FIFO methodology in associating period expenditures
     with funding sources. This methodology does not allow for the matching of a
     particular period’s expenditures with the funding allotted to that period. As such,
     expenditures reported by the Local Board are not matched with the funding
     applicable to the period in which they are incurred, rather they are charged against
     prior period remaining funds until these funds have been exhausted and then
     charged against subsequent periods’ funding.

     For example, any amount of PY 2000 funding that remained after PY 2000 had
     lapsed was used to satisfy a subsequent period’s expenditures until all of PY 2000
     funding was exhausted. FY 2001 funding would have subsequently been used to
     satisfy the period’s expenditures. Matching a period’s expenditures against prior
     period funding dissociates the funding allotted to a specific period from the costs
     of that period.




                                          11
10.   Determine how the Local Board defines an obligation and the point at which
      funds are considered to be obligated. Determine if the Local Board
      definition includes only anticipated expenditures to meet bona fide needs of
      the funding program year and for which a legal liability exists.

      At the three Local Boards visited, representatives indicated that the “obligation”
      of funds coincides with the decision by the Local Boards to award funding to a
      particular entity/subcontractor to perform services under WIA. Funds are
      awarded in anticipation of making payments to subcontractors, in order to meet
      bona fide needs of the WIA program. Awards are accompanied by Local Boards
      signing contracts with subcontractors. Consequently, valid obligations are
      created.

      Thus, this definition includes only anticipated expenditures to meet bona fide
      needs for which a legal liability exists. However, as mentioned at item number 9
      of this report, there is no appropriate matching of the funding year and program
      year due to TDOLWD’s and Local Boards’ use of FIFO methodology and as
      mentioned at item number 8 of this report, the Local Boards neither track nor do
      they report obligations to TDOLWD.




                                          12
EXHIBIT I

                          FINANCIAL STATUS REPORT
                       LOCAL ADULT PROGRAM ACTIVITIES




     Following this title page is the WIA financial status report used to record local
     adult program activities.




                                          13
14
                                                                       EXHIBIT II

                 FINANCIAL STATUS REPORT
       LOCAL DISLOCATED WORKER PROGRAM ACTIVITIES




Following this title page is the WIA financial status report used to record local
dislocated worker program activities.




                                     15
16
                                                                      EXHIBIT III

                    FINANCIAL STATUS REPORT
                 LOCAL YOUTH PROGRAM ACTIVITIES




Following this title page is the WIA financial status report used to record local
youth program activities




                                     17
18
                                                                           EXHIBIT IV


                         THE COMPLETE TEXT OF
                    TENNESEE’S RESPONSE TO THE DRAFT
                     AGREED-UPON PROCEURES REPORT




Following this title page is the complete text of Tennessee’s response to our agreed-upon
procedures report, issued to them on February 14, 2003.




                                           19
20
21
22
